  FEDERAL ELECTION COMMISSION


  OFFICE OF INSPECTOR GENERAL





           SPECIAL PROJECT


Survey of the Federal Election Commission’s 

   New Employee Orientation Program





            SEPTEMBER 2012


          ASSIGNMENT No. OIG-12-08

                   OFFICE OF INSPECTOR GENERAL

                          TABLE OF CONTENTS


DESCRIPTION                                      PAGE


Purpose and Methodology                           1


Discussion                                        2


Survey Results                                    5





                                  ii
                        PURPOSE AND METHODOLOGY


The Office of Inspector General (OIG) recently surveyed current Federal Election
Commission (FEC) employees who were hired between June 30, 2009, and June 30, 2012,
concerning the FEC’s New Employee Orientation (NEO) program. The purpose of the
survey was to evaluate the effectiveness of the FEC's NEO program and suggest
improvements to enhance the program. The NEO program currently consists of two main
segments – a general briefing conducted by the Office of Human Resources (OHR),
including an administration of the oath of office and overview of federal benefits, and
functional area briefings from agency components, such as the OIG, Deputy Designated
Agency Ethics Officer, and Office of Equal Employment Opportunity.

The OIG survey was conducted between July 31 and August 15, 2012. The survey was sent
to sixty-eight (68) employees who met the criteria specified above. Forty-three (43)
employees responded, with forty (40) completing the survey and three (3) only partially
responding; twenty-five (25) employees did not respond. The overall response rate was
sixty-three percent (63%), and the response rate for completed surveys was fifty-nine percent
(59%). The results of the survey, including comments by the respondents (some of which
may have been non-substantively altered to protect the respondent’s identity), are attached.
                                     DISCUSSION


The NEO program survey responses were generally positive. For example, ninety percent
(90%) responded that both the general and functional area briefings were helpful, and eighty-
one percent (81%) found the length of both the briefings to be “just about right.” The
following are OIG suggestions, primarily based on an analysis of respondent comments, to
improve the NEO program:

       Functional area briefings should be provided on the same day as the general briefings.
       OHR has already changed the format of the NEO program so that even when only
       one person starts work on a particular date, both sets of briefings are scheduled and
       conducted on the same day. Previously, if only one employee was on-boarded on a
       particular date, the general briefing would be held on that date but the agency
       components providing the functional area briefings were told to schedule their
       briefings independently at a later date. As a result, twenty-nine percent (29%) of
       respondents did not receive their functional area briefings on the same day as their
       general briefings, and some employees never received their functional area briefings.
       Functional area briefings cover critical information for new employees. For example,
       the briefing by the Deputy Designated Agency Ethics Official covers laws and
       regulations that FEC employees are required to follow, violations of which may incur
       administrative or even criminal sanctions.

       An OHR employee should be assigned to check in each time a functional area
       briefing is scheduled to begin to keep the orientation on track. Several respondents
       indicated that not all the speakers showed up and some were late. As a result, new
       employees were left sitting in the room alone for an extended period of time. First
       impressions are important, and large gaps in an employee’s first day can make the
       FEC appear disorganized. Assigning an OHR employee to check in periodically
       should help eliminate these gaps of empty time and keep the program on schedule,
       and the OHR employee could summon a person to fill in for a presenter, if necessary.
       It would also be helpful to have the presenters notify the OHR employee when they
       have finished their presentations of their functional area.

       The NEO schedule should be expanded, perhaps to at least a partial second day, to
       allow more time to provide important information in some areas, particularly benefits
       (including flexible schedules and flexiplace). Although eighty-one percent (81%)
       responded that the time allotted for the briefings was about right, some respondents
       commented that not enough time was spent on benefits information and that the
       presentations were rushed. Comments included that there was “[t]oo much thrown at
       you in one day” and “[t]oo much crammed in one day.”

                                              2

Several commenters felt a macro overview of how the agency functions and how the
various offices and divisions interact in fulfilling the agency’s mission would be
helpful. Topics could include, for example, the campaign finance violation complaint
process and the functioning of the Reports Analysis Division, and how they relate to
the agency’s mission. A brief history of the FEC, if not already included, may be
helpful in this regard.

Skillport, an online training program used by the FEC, could also be used for some of
the NEO program material, but the OIG strongly believes that computer training
should not replace face-to-face communication between new employees and
presenters. Direct interaction helps to build important relationships and fosters
understanding.

OHR should consider adding a functional area briefing by the Office of the Chief
Financial Officer, according to a commenter, although this could be included in a
section on agency function and how each office contributes to the FEC’s mission.

Some information for new employees, like an overview of benefits (including flexible
schedules and flexiplace) available and other basic information, as well as forms that
need to be completed, should be sent to the new employee by email before the first
day. This would allow new employees to have a foundation for the information
presented during the NEO program, and forms could be filled out beforehand and
save time.

OHR, in conjunction and cooperation with other agency components, should take the
lead to develop an employee handbook that compiles and details policies and
procedures applicable to all employees, and all agency policies and procedures should
also be compiled in one location on the server (i.e. FECNet, the FEC’s intranet site)
where they can be easily accessed and updated. New employees should be provided
this information on the first day. The survey revealed that while seventy-four percent
(74%) of respondents were provided at least some reference material on policies and
procedures, only sixty-one percent (61%) were informed of where they could find
electronic versions of policies and procedures, and forty-five percent (45%) felt that
there were policies and procedures they were supposed to follow but did not know
what they were or how to locate them.

A tour of the FEC building and offices should be part of the NEO Program. Only
thirty-five percent (35%) of respondents received a tour, and of those who received a
tour, seventy-one percent (71%) thought the tour was helpful in understanding the

                                      3

       agency and its functioning. Of those who did not receive a tour, seventy-seven
       percent (77%) thought a tour would have been helpful.

       Although it was not addressed in the survey, OHR should ensure that all new
       employees receive training in emergency procedures and the FEC’s Occupant
       Emergency Plan.

       New employees who have never worked in the federal government before might
       benefit from an additional introduction to working for the federal government, which
       could be given on another day. A presentation on legal issues, including topics such
       as the statutes that govern federal employment and the FEC, and the difference
       between statutes and regulations for non-lawyers, could be informative.

The attached report of the survey responses follows in the next section, and provides detailed
answers and comments by the respondents. With the exception of some limited redactions to
protect a respondent’s identity, the individual comments have not been altered.




                                              4

SURVEY RESULTS





      5

Confidential New Employee Orientation Survey


1. Did you receive a NEO on your first day at the FEC?

                                                                 Response    Response
                                                                  Percent     Count


                          YES                                       93.0%          40


                          NO                                         7.0%             3


                                                         answered question         43


                                                          skipped question            0




2. If NO, please indicate when you received NEO

                                                                 Response    Response
                                                                  Percent     Count

                    First week                                       0.0%             0


                 Second week                                         0.0%             0


                  First month                                       33.3%             1


             After first month                                      33.3%             1


          Never received NEO                                         0.0%             0


        Other (please specify)
                                                                    33.3%             1


                                                         answered question            3


                                                          skipped question         40




                                            1 of 18
3. Did you receive FUNCTIONAL AREA briefings (NTEU, EEO, OIG, etc.) on the same day as
your general briefing?

                                                                         Response    Response
                                                                          Percent     Count


                      YES                                                   71.4%          30


                      NO                                                    28.6%          12


                                                                 answered question         42


                                                                  skipped question            1




4. If NO, were you informed by OHR that you would need to schedule your FUNCTIONAL
AREA briefings with the appropriate offices?

                                                                         Response    Response
                                                                          Percent     Count

                     YES                                                    25.0%             3


                      NO                                                    75.0%             9


                                                                 answered question         12


                                                                  skipped question         31




                                          2 of 18
5. Please indicate when you received you FINAL FUNCTIONAL AREA briefing

                                                                                 Response      Response
                                                                                  Percent       Count

                       First week                                                    22.2%              2


                    Second week                                                        0.0%             0


                    First month                                                      44.4%              4


   Never received functional area
                                                                                     33.3%              3
                        briefings


                                                                      Other (please specify)
                                                                                                        4



                                                                       answered question                9


                                                                         skipped question            34




6. Overall, did you find the GENERAL briefing (oath of office, federal benefits, etc.) to be
helpful?

                                                                                 Response      Response
                                                                                  Percent       Count


                             YES                                                     90.2%           37


                             NO                                                        9.8%             4


                                                                       answered question             41


                                                                         skipped question               2




7. What aspects of the GENERAL briefing did you find particularly helpful?

  [Please see page 11 of the Survey Results]                                                   Response
                                                                                                Count

                                                                                                     22


                                                                       answered question             22


                                                                         skipped question            21


                                              3 of 18
8. What aspects of the GENERAL briefing did you find particularly NOT helpful?


  [Please see page 12 of the Survey Results]                                               Response
                                                                                            Count

                                                                                                 21


                                                                       answered question         21


                                                                        skipped question         22




9. In terms of overall time allocated for the GENERAL briefing, did you find it to be:

                                                                               Response    Response
                                                                                Percent     Count

                  Not enough                                                      14.6%             6


             Just about right                                                     80.5%          33


                    Too much                                                       4.9%             2


                                                                       answered question         41


                                                                        skipped question            2




10. If “not enough” or “too much,” please explain why

   [Please see page 13 of the Survey Results]                                              Response
                                                                                            Count

                                                                                                    7


                                                                       answered question            7


                                                                        skipped question         36




                                              4 of 18
11. Overall, did you find the FUNCTIONAL AREA briefings (NTEU, EEO, OIG, etc.) to be helpful?

                                                                            Response    Response
                                                                             Percent     Count


                       YES                                                     90.2%          37


                       NO                                                       9.8%             4


                                                                    answered question         41


                                                                     skipped question            2




12. What aspects of the FUNCTIONAL AREA briefings did you find particularly helpful?

  [Please see page 14 of the Survey Results]                                            Response
                                                                                         Count

                                                                                              16


                                                                    answered question         16


                                                                     skipped question         27




13. What aspects of the FUNCTIONAL AREA briefings did you find particularly NOT helpful?

   [Please see page 15 of the Survey Results]                                           Response
                                                                                         Count

                                                                                              14


                                                                    answered question         14


                                                                     skipped question         29




                                            5 of 18
14. In terms of overall time allocated for the FUNCTIONAL AREA briefings, did you find it to
be

                                                                             Response    Response
                                                                              Percent     Count

                  Not enough                                                     9.8%             4


             Just about right                                                   80.5%          33


                    Too much                                                     9.8%             4


                                                                     answered question         41


                                                                      skipped question            2




15. If “not enough” or “too much,” please explain why

                                                                                         Response
  [Please see page 16 of the Survey Results]
                                                                                          Count

                                                                                                  6


                                                                     answered question            6


                                                                      skipped question         37




16. Were you provided any type of employee manual or handbook containing employee
policies and procedures?

                                                                             Response    Response
                                                                              Percent     Count


                         YES                                                    71.8%          28


                         NO                                                     28.2%          11


                                                                     answered question         39


                                                                      skipped question            4




                                             6 of 18
17. Were you provided any other type of reference material on employee policies and
procedures?

                                                                         Response     Response
                                                                           Percent     Count


                      YES                                                    74.4%          29


                       NO                                                    25.6%          10


                                                                 answered question          39


                                                                   skipped question            4




18. Were you informed where you could find electronic versions of employee policies and
procedures?

                                                                         Response     Response
                                                                           Percent     Count


                      YES                                                    61.5%          24


                       NO                                                    38.5%          15


                                                                 answered question          39


                                                                   skipped question            4




19. Do you feel there are employee policies and procedures that you are supposed to follow
but you do not know what they are or cannot locate them?

                                                                         Response     Response
                                                                           Percent     Count

                      YES                                                    45.0%          18


                       NO                                                    55.0%          22


                                                                 answered question          40


                                                                   skipped question            3




                                          7 of 18
20. Did you receive a tour of the FEC building and offices?

                                                                            Response    Response
                                                                             Percent     Count

                       YES                                                     35.0%          14


                        NO                                                     65.0%          26


                                                                    answered question         40


                                                                     skipped question            3




21. Was the tour helpful in understanding the organization and internal functioning of the
FEC?

                                                                            Response    Response
                                                                             Percent     Count


                       YES                                                     71.4%          10


                        NO                                                     28.6%             4


                                                                    answered question         14


                                                                     skipped question         29




22. Do you think a tour would have been helpful in understanding the organization and
internal functioning of the FEC?

                                                                            Response    Response
                                                                             Percent     Count


                       YES                                                     76.9%          20


                        NO                                                     23.1%             6


                                                                    answered question         26


                                                                     skipped question         17




                                             8 of 18
23. Additional comments, including changes you think would be helpful to the NEO program

                                                                                     Response
  [Please see page 17 of the Survey Results]
                                                                                      Count

                                                                                           20


                                                                answered question          20


                                                                  skipped question         23




                                          9 of 18
Page 2, Q2. If NO, please indicate when you received NEO

  1      I rec'd much of the NEO on the first day (including OHR's presentations) others
         were later, some not at all




Page 3, Q5. Please indicate when you received you FINAL FUNCTIONAL AREA briefing

  1      Probably received most of it. But half of my orientation speakers did not show
         up.

  2      Only received separate OHR, OCIO, and OIG briefings; not NTEU or EEO
         briefings

  3      I never recieved the EEO briefing.

  4      I was told I would be contacted by functional areas for briefings but never was.
         About 8 months later my manager arranged for me to sit in on other new hires
         NEO




                                                       10 of 18
Page 3, Q7. What aspects of the GENERAL briefing did you find particularly helpful?

  1      Ethics and role of Commission

  2      The overview of the history of the FEC and the different offices.

  3      Benefits

  4      federal benefits

  5      -Nothing particuarlly. All information was helpful.

  6      All of it. I am new to the federal govenment so it was all new to me and pretty
         interesting.

  7      The ethics aspects.

  8      overview of the agency

  9      The staff administering the general briefing was helpful in answering questions
         and providing clarifying information. They were also able to provide answers
         based on individual circumstances.

 10      discussion of benefits

 11      OHR explained benefits well.

 12      Talking about specific situations and effective dates of coverage.

 13      the general overview of the subject matter

 14      The variety of presentations was particularly helpful. The briefings gave us the
         opportunity to learn about each division and their responsibilities.

 15      The benefits are complex -- so that part was helpful, but I could have used even
         more information.

 16      the slideshow

 17      All.

 18      All aspects

 19      Filling out the federal benefits forms and having my questions answered on the
         spot to avoid any delays.

 20      I did not find the general briefing to be helpful.

 21      overview of the agency's departments.

 22      Understanding the different offices in the agency.




                                                          11 of 18
Page 3, Q8. What aspects of the GENERAL briefing did you find particularly NOT helpful?

  1      I was a transfer employee and had been in the government for over 20 years
         and most of this information I already knew.

  2      N/A

  3      Federal benefits briefing was done quickly and with other new entrants so it was
         difficult to process all of the information and what pertained to me. I didn't want
         to ask too many questions because I didn't want to hold up the group and some
         of my questions dealt with private matters so I had to come back seperately.For
         something so important not enough time was spent on federal benefits.

  4      the lack of a comprehesive document for policies applicable to an employee

  5      NA

  6      About four presdenters did not show up.

  7      The briefing seemed a little rushed in terms of going over, completing, and
         submitting some of the forms.

  8      none

  9      My briefing was individual since no one else hired on my start week. I would
         have liked to attend the group orientation too since it seems to have offered
         more information but I was no aware of it at the time. Also, I was brand new to
         the Federal Government and I think that there is much that was not explained to
         me...especially no information on Performance evaluations and schedule. The
         OHR forms were hard copies and seemed to get lost in OHR dept causing need
         to resubmit some. I was not briefed prior to start day on some Benefits. For
         example, I asked OHR for some additional information on benefits for Short and
         Long Term Disability but it was not provided. This made it more difficult to
         compare benefits with my prior employer and make decisions on accepting the
         offer. They provided a link to the Benefits online but this topic was not discussed
         at the website. Also, I asked about Performance Evaluations after I was provided
         an offer but was not given very clear or complete information on the process.

 10      Nothing stands out.

 11      don't recall

 12      I would have like to have a more detailed/floor-by-floor tour of the building to
         learn the location of everything and figure our way around. It took a while for me
         to learn where things were and what amenities the building has so a more
         detailed “tour” on the first day might have been helpful.

 13      Continuing from above, for the benefits briefing, it would be helpful to have an
         overview of what all of the benefits are before diving into the details.

 14      I was only given a book of all the medical benefits and plans,There were soo
         many, it would have been helpful to get a brief overview of all the plans.

 15      Too much thrown at you in one day and the people went through the material so
         quickly that you didn't really know who went with what office.




                                                        12 of 18
Page 3, Q8. What aspects of the GENERAL briefing did you find particularly NOT helpful?

 16      the timeframe- I wasen't sure if I needed to fill out the paperwork by the end of
         the briefings or not

 17      None.

 18      Video introducing FEC's components was outdated. This was corrected shortly
         after I brought this to the HR Director's attention.

 19      The oath of office.

 20      The FEC orientation video and NTEU briefing.

 21      No one walked us through the federal benefits program.




Page 4, Q10. If “not enough” or “too much,” please explain why

  1      While the staff was helpful in answering questions, the briefing seemed a little
         rushed in terms of going over, completing, and submitting some of the forms.

  2      See previous answer.

  3      Didn't allow time to give an adequate overview of all the federal benefits. May
         have been ok for someone coming from another federal agency but was not
         adequate for someone coming from private industry. The amound of plans and
         other benefits was pretty overwhelming.

  4      I wasen't sure if I needed to fill out the paperwork by the end of the briefings or
         not

  5      Too much crammed in one day. It would have been better to have an hour or so
         spread out over several days

  6      The general briefing could have been conducted in 15 minutes. Further, any
         ancillary materials such as videos and pamphlets could have been sent to the
         new employee via email or shared via the FEC Intranet site.

  7      same as earlier question - no one came to talk us through the federal benefits
         program. It was on the schedule, but as was the case for a few sections of our
         orientation, no one showed up.




                                                         13 of 18
Page 4, Q12. What aspects of the FUNCTIONAL AREA briefings did you find particularly helpful?

  1      OIG, EEO, Ethics Office

  2      I never received an briefing from EEO

  3      I thought that the briefings were a good way to introduce different parts of the
         agency. They were brief, but informative, and I liked that they were presented by
         representatives from each of the functional areas.

  4      Never got one

  5      I enjoyed the OIG briefing because it explained their processes well and gave
         me a better understanding.

  6      The IT portion- familiarization with particular software.

  7      don't recall specifics

  8      It was detailed and gave a good overview of the functional area briefings.

  9      The brief history/understanding of the different areas.

 10      useful information

 11      All

 12      It provided general diretion and guideline for a new employee to get started at
         FEC.

 13      I did not find the functional area briefings to be helpful.

 14      EEO briefing.

 15      OIG.

 16      NTEU




                                                          14 of 18
Page 4, Q13. What aspects of the FUNCTIONAL AREA briefings did you find particularly NOT helpful?

  1      NTEU didn't present. IT and Admin briefings were helpful but I don't think they
         need as much time as some of the other areas that had to rush presentations.

  2      the lack of a comprehensive document which included all policies relevant to an
         employee

  3      It was a lot of information to take in at once, with one presentation after another.

  4      Never got one

  5      I was not provided a Union or EEO briefing. I think it would also be helpful to be
         briefed about OCFO Functional Area to understand the payroll process lag
         before Pay Date and the related benefits of hours of accrual for annual, and sick
         leave and the limits of carry over each year. Maybe this is OHR but it maybe
         would be useful to have OCFO explain since it affects the paycheck.

  6      Repetition of aspects common to all other federal agencies. The computer
         training requried as a part of the briefings-- too many required areas, required to
         be completed too quickly,

  7      don't recall specifics

  8      I'm not a bargaining unit employee, so there was really no benefit to the union
         briefing.

  9      none

 10      could have been spread out over more time

 11      None

 12      None.

 13      Any functional area briefings should be conducted through Skillport in future.

 14      NTEU briefing.




                                                        15 of 18
Page 5, Q15. If “not enough” or “too much,” please explain why

  1      The presenters basically read from the documenation provided to me which
         seemd unproductive

  2      Because it never happened.

  3      The briefing themselves, timewise, were okay, But having to complete training
         and other requirements in the timeframes established in conjunction with other
         duties was too much.

  4      The presenters seemed rushed to get done in the alloted time. As a result not
         sure they were able to give all the information they would have liked.

  5      everything started to get crammed and overlapped over the next or previous
         presentation

  6      The functional area briefings interfered with critical on-the-job training that I
         received in my office.




                                                          16 of 18
Page 7, Q23. Additional comments, including changes you think would be helpful to the NEO program

  1      If I was a new employee, a tour would have been helpful.


  2      Program is not too bad,,,,

  3      Was not given information about agency policies and procedures. Was not
         given a proper overview of compressed schedules and telework policies and
         proceudres. Since different rules apply to different types of employees it would
         be more helpful to address them specifically after the employee is informed
         about whether they are bargaining unit or non-barganing unit.

  4      I feel that the different divisions within the FEC are very disjointed. Due to the
         nature of our work we are not often required to work with individuals from
         another division or branch and I beleive that it would have been beneficial to get
         an overview of all the different offices, their functions and relationship to
         eachother.

  5      My main suggestion would be to provide an employee handbook.

  6      Making sure that all benefits, TSP deductions are current before your first
         paycheck at the agency.

  7      In general, I think the NEO program was helpful during my first couple of days at
         the FEC. I liked that I was able to learn a little bit more about the Commission
         before being thrown into an unfamiliar environment. Personally, it would have
         been helpful to have had more time with the general briefing, since this is my first
         government job and I was unfamiliar with many of the aspects of the benefits
         package.

  8      My employment took place prior to the current HR administration's tenure. I'm
         sure things are better and more efficient now.

  9      A new employee orientation is very helpful and much appreciated. The
         individual orientation sessions I received were good and I was satisfied with
         them. However, being new to Government work it would be helpful to have a
         separate session for new Federal Employees to better acclimate us to the
         Federal processes and expectations. Also, an overview session on FEC
         operational policy and procedures so as to inform what is normal workflows and
         who to contact when workflow isn't accomplished. For example, currently, I
         haven't received a Performance Review for my 6 month or 1 year events;


 10      There were ethics publications, and an IT directives and other policy/policy type
         documents provided along with other information, but there was no FEC manual
         that provided all the FEC policies and procedures. Its learn as you go. For
         example, what are the FEC's core hours, what are the attendance options. What
         are the governing contractual agreements between management and
         employees. Are there continuity of operation plans, and what are employees
         suppose to do, what are the emegency evacuation procedures, etc...

 11      I would prefer a more detailed reference book on what is and is not permited
         under both Ethics regulations and the hatch act.




                                                        17 of 18
Page 7, Q23. Additional comments, including changes you think would be helpful to the NEO program

 12      While I unfortunately don't recall specifics about the NEO program, I do
         remember thinking that it would be helpful to have a greater overview of all ofthe
         divisions within the FEC, and how they work together - this could be very
         effectively combined with a tour. Additinally, while this is outside the scope of
         this particular survey, I think it would be helpful to review the orientation that
         each division provides to its new employees - from what I understand, some are
         more thorough than others, and I think I would have benefitted from a more
         intense divisional orientation.

 13      I would clarify that on the employee handbook question, the answer is more a
         "maybe." I don't recall ever going over a handbook, but I may have received one
         somewhere in the stack of materials. For the most part, however, the agency
         relies heavily on the online Skillport trainings to communicate employee policies.
         Some of those are helpful, but most of them do not prioritize important
         information very well. That would be my strongest overall suggestion -- focus
         more on what employees need to know to do their jobs and to use their
         employee resources. That information alone would be a lot to absorb -- all of the
         extraneous information makes it even more difficult.

 14      None

 15      More time should be given for functional briefings and an employee handbook
         should be given out that includes at least some of the main policies that
         employees must follow, for example Time & Attendence policy

 16      Questions regarding employee policies and procedures are too vague. What
         kind of policies and procedures are you referring to? Yes, I did receive overall
         information regarding my benefits, safety, health, etc. as an employee of FEC if
         that's the question.

 17      Provide a briefing that covers general policies and procedures, and an employee
         handbook copy. Further, detail the relevant offices that provide services to
         employees and their relevant points of contact, and explain whether the function
         is handled internally or externally. This content should be delivered in 30-45
         minutes, and should not exceed 1 hr. Further, move the functional area briefings
         to Skillport and/or the FEC Intranet. This would reduce the amount of official time
         spent in meetings.

 18      Additional time for tours and meeting colleagues would be helpful. It was nice to
         start with a new group of attorneys and feel that we could lean on each other for
         information.

 19      There were a few times where people were supposed to show up to talk to us
         about different divisions of the agency or different federal programs and no one
         came by. My coworker and I just sat there waiting multiple times, sometimes as
         long as 45 minutes. I understand people can be busy, but there should at least
         be (if there wasn't) someone overseeing the overall orientation, checking in on
         the new hires and making sure people are showing up to talk to them, or if
         people have to cancel, to let the new hires know so they aren't just waiting for
         someone who doesn't show up.

 20      I did not receive a tour as part of my NEO, but my mentor later gave me a partial
         tour, which I found helpful.




                                                       18 of 18
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
